           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



  PERFORMANCE INDICATOR AUDIT:
       800-NUMBER ACCESS


  September 2006    A-02-06-16108




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
MEMORANDUM

Date:     September 18, 2006

To:       Inspector General

From:     PricewaterhouseCoopers, LLP

Subject: Performance Indicator Audit: 800-Number Access (A-02-06-16108)

OBJECTIVE
The Government Performance and Results Act (GPRA) 1 of 1993 requires the Social
Security Administration (SSA) to develop performance indicators that assess the
relevant service levels and outcomes of each program activity. 2 GPRA also calls for a
description of the means employed to verify and validate the measured values used to
report on program performance. 3

Our audit was conducted in accordance with generally accepted government auditing
standards for performance audits. For the performance indicators included in this audit,
our objectives were to:

          1. Assess the effectiveness of internal controls and test critical controls over the
             data generation, calculation, and reporting processes for the specific
             performance indicator.

          2. Assess the overall reliability of the performance indicator’s computer
             processed data. Data are reliable when they are complete, accurate,
             consistent and are not subject to inappropriate alteration. 4

          3. Test the accuracy of results presented and disclosed in the Fiscal Year
             (FY) 2005 Performance and Accountability Report (PAR).

          4. Assess if the performance indicator provides a meaningful measurement of
             the program it measures and the achievement of its stated objective.


1
 Public Law No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 United States
Code (U.S.C.), 31 U.S.C. and 39 U.S.C.).
2
    31 U.S.C. § 1115(a)(4).
3
    31 U.S.C. § 1115(a)(6).
4
 Government Accountability Office (GAO), GAO-03-273G, Assessing Reliability of Computer Processed
Data, October 2002, p. 3.


Performance Indicator Audit: 800-Number Access (A-02-06-16108)                                        1
BACKGROUND
We audited the following performance indicators as stated in the SSA FY 2005 PAR:

    Performance Indicator                     FY 2005 Goal                 FY 2005 Actual Results

Optimize the Speed in
Answering 800-Number                          330 Seconds                         296 Seconds
Calls
Optimize the 800-Number                             10%                                10%*
Agent Busy Rate
* The result reported in the FY 2005 PAR for the Agent Busy Rate (ABR) was 10 percent. However, the
ABR actual result for FY 2005 was 9.5 percent. SSA management rounded the result of this indicator to
the nearest whole number using the standard rounding convention of rounding down numbers less than
or equal to .4 and rounding up numbers greater than or equal to .5. 5

SSA began using telephone service centers as a mechanism to interface with the public
in the mid-seventies and established the National 800 Number Network in
October 1988. The Call Center Network Solutions (CCNS) architecture that is used
today for the National 800-Number Network was installed in 2001 to provide the general
public with greater access to SSA programs, such as the Disability Insurance program,
authorized by Title II of the Social Security Act,6 and the Supplemental Security Income
program, authorized by Title XVI of the Social Security Act.7 The National 800-Number
Network was also implemented to provide the public with the ability to request changes
to their individual records (i.e. address, earnings, etc). Although the general public has
a variety of other service options when obtaining information or conducting business
with SSA (i.e. internet, field offices, etc.), the majority of the customers conduct their
business with SSA via the telephone. 8 In FY 2005, SSA estimated that 57 million
customers would access the National 800-Number Network to conduct their business
with the Agency. 9

When SSA customers dial the National 800-Number Network (800-SSA-1213) and
request agent assistance, they are connected to an SSA agent in 1 of the 44
geographical SSA locations. These locations consist of 36 Teleservice Centers
(TSC), 6 Program Service Centers (PSC), and 2 components of the SSA Office of



5
    Social Security Administration Performance and Accountability Report Fiscal Year 2005, p. 80.
6
    The Social Security Act, §§ 201-234, 42 U.S.C. §§ 401-434.
7
    The Social Security Act, §§ 1601-1637, 42 U.S.C. §§ 1381-1383f.
8
 Office of the Inspector General, Social Security Administration, Performance Indicator Audit: Overall
Service Rating, A-15-05-15118 (October 2005).
9
    Social Security Administration Performance and Accountability Report Fiscal Year 2005, p. 80.


Performance Indicator Audit: 800-Number Access (A-02-06-16108)                                           2
Central Operations (OCO). 10 There are approximately 4,000 agents at the 36 TSCs
and the 2 components of the OCO. These agents have the primary responsibility of
answering the 800-number incoming calls. During times when the call volume exceeds
the agents’ capabilities, SSA management has the ability to deploy additional personnel
trained to act as agents to supplement the full time TSC personnel. These personnel
(known as "SPIKES") have primary responsibilities outside of the TSC function. These
responsibilities cover a variety of other administrative duties (i.e. claims processing,
collections or mailings). By using the assistance of "SPIKES", SSA management has
the ability to efficiently operate the National 800-Number Network by reducing the length
of time callers remain in queue, and reducing the number of agent busy messages
given to callers. There are approximately 2,000 "SPIKES" in the 6 PSCs (co-located at
the TSC sites).

The 800-Number Access performance indicators are linked to SSA’s strategic objective
to “…improve service with technology.” 11 The strategic objective is linked to the SSA’s
strategic goal “…to deliver high quality, citizen-centered service…” 12 which
encompasses the Agency’s traditional and electronic services to applicants for benefits,
current beneficiaries, and future beneficiaries.

RESULTS OF REVIEW
Overall, we found the nature of the performance indicators to be meaningful GPRA
measurements. However, SSA management could not provide
PricewaterhouseCoopers, LLP (PwC) access to the systems used to generate the
results of the performance indicators, as the systems are owned and operated by a
contractor (Verizon). In addition, SSA management was unable to provide adequate
documentation that supported their conclusion that the Verizon systems used to
generate the performance indicator results were sufficiently controlled to ensure the
completeness, accuracy, and validity of the data. As a result, PwC was unable to
recalculate, and could not conclude on the accuracy of the results reported in the PAR
for the performance indicators included in this report.

Specific to the Average Speed of Answer (ASA) performance indicator, we found the
description of the data definition in the PAR to be inaccurate.




10
 GAO, Social Security Administration: Additional Actions Needed in Ongoing Efforts to Improve 800-
Number Service, GAO-05-735 (August 2005), p. 9.
11
     Social Security Administration Performance and Accountability Report Fiscal Year 2005, p. 79.
12
     Social Security Administration Performance and Accountability Report Fiscal Year 2005, p. 67.


Performance Indicator Audit: 800-Number Access (A-02-06-16108)                                       3
Indicator Backgrounds

Optimize the Speed in Answering 800-Number Calls

When an SSA customer calls the SSA National 800-Number Network, he/she is
presented with a series of service selection announcements. The callers have the
option of conducting their business through automated prompts or via agent assistance.
If the customer chooses agent assistance, the vendor supplied Intelligent Contact
Manager (ICM) application determines the most efficient routing destination for the call.
The ICM considers agent availability, estimated wait time in queue and the number of
calls currently in queue before routing calls to an available agent. 13 If there are agents
available to handle the incoming call, the call is immediately transferred and answered
by an agent without waiting in queue. These calls report a zero ASA and are included
in the calculation for the ASA. 14 The ASA indicates how timely the agents and SPIKES
are answering the incoming calls to the National 800-Number Network.

When there are no agents available to handle the incoming call, the call is placed in
queue and the wait time calculation begins. Once an agent becomes available to
handle the call, the system automatically routes the call to the available agent. Once
the agent answers the call, the wait time calculation ends.

The Automatic Call Distributor (ACD) systems record the call data. The call data is
downloaded from the ACDs to a Cisco Webview Application every 30 minutes. The
Cisco Webview Application is a vendor-supplied application that maintains and
produces reports on the call data recorded by the ACDs on a real-time basis.
Every 60 minutes, the Office of Telephone Services (OTS) Voice Network Team (VNT)
downloads the system generated reports of the call data from the Cisco Webview
Application into spreadsheets for the recording and tracking of the hourly and year to
date (YTD) ASA calculation. The ACDs automatically calculate the YTD ASA
calculation. By tracking the ASA, SSA is able to manage the National 800-Number
Network through internal forecasting projections.

Performance Indicator Calculation


                                                  =        Answer Wait Times of All Calls
Average Speed of Answer
                                                           All Calls Answered by Agents


“Answer Wait Times of All Calls” is defined as the cumulative wait times from calls being
placed in queue waiting for agent assistance. “All Calls Answered by Agents” is defined

13
 GAO, Social Security Administration: Additional Actions Needed in Ongoing Efforts to Improve 800-
Number Service, GAO-05-735 (August 2005), p. 10.
14
     Social Security Administration Performance and Accountability Report Fiscal Year 2005, p. 79.


Performance Indicator Audit: 800-Number Access (A-02-06-16108)                                       4
as the cumulative number of calls that were answered by agents. For additional details
on the calculation of this performance indicator, please refer to the flowcharts in
Appendix C.

Optimize the 800-Number Agent Busy Rate

If the call queues are filled to capacity and there are no available agents to handle the
incoming call, the caller receives a busy message. A busy message is a voice
announcement that informs the caller that the system is filled to capacity and asks the
caller to call back at a later time. The performance indicator measures the ABR based
upon the number of calls that receive busy messages.

The vendor supplied ICM application monitors the system capacity to ensure that all
calls are getting through to the National 800-Number Network. When the system is
operating at full capacity and there is no available agent or queue space, the ICM routes
the call to the network Menu Routing System (MRS) platform which tells the Voice
Response Unit (VRU) to play a busy message that instructs the caller to call back at a
later time. The ICM records the call data for the calls receiving the busy messages.
The call data is downloaded from the ICM to the Cisco Webview Application
every 30 minutes. Every 60 minutes, the OTS VNT downloads the call data from a
Cisco Webview Application into spreadsheets for the recording and tracking of the ABR.
The OTS VNT performs the calculation for the ABR based upon the call data
downloaded from the Cisco Webview application. The OTS VNT compiles the
cumulative daily ABR to calculate the YTD ABR which is ultimately reported in the PAR.

Performance Indicator Calculation


                                         =       Number of Busy Messages
           Agent Busy Rate
                                               Number of Calls Offered to Agents


“Number of Busy Messages” is defined as the number of blocked calls in the network
that generate a busy message to the caller. “Number of Calls Offered to Agents” is
defined as the number of callers that requested an agent. For additional details on the
calculation of this performance indicator, please refer to the flowcharts in Appendix C.

Findings

Internal Controls and Data Reliability

The ACDs, ICM, and the Cisco Webview Application that recorded the call data for the
ASA and ABR calculations were owned and operated by Verizon. SSA could not
provide PwC access to perform any internal control tests on the Verizon owned
applications. In addition, SSA neither had the ability to conduct systems control
reviews, nor was it able to assess the effectiveness of the control environment or the


Performance Indicator Audit: 800-Number Access (A-02-06-16108)                          5
reliability of the data produced from the Verizon systems. Finally, Verizon did not
provide SSA with adequate control attestation documentation (such as a Statement of
Auditing Standards #70 report) 15 to provide SSA management, or the auditor,
assurance that the controls related to the performance indicator data were adequately
designed and operating effectively. As a result, PwC was not able to conclude on the
reliability of the data that was used to calculate these performance indicator results.
SSA management concurred with this finding, and is currently working with Verizon to
request that a Statement of Auditing Standards #70 report be provided.

SSA management informed PwC that they had performed extensive testing on the
Verizon ACDs and ICMs during the installation of the CCNS architecture for the
National 800-Number Network in 2001. Management performed this testing to ensure
the Verizon systems were accurately recording all of the pertinent call information;
including total call times, ABRs, and caller wait times. However, SSA management
stated that the results of this testing were not retained beyond 3 years following
installation of the CCNS architecture.

Data Retention

The Cisco Webview Application system generated reports were maintained by OTS
for 180 days. However, at the time of our request, the call data and reports had been
deleted from the OTS systems. PwC was informed that the call data that was deleted
from the OTS systems were also stored on the SSA mainframe. However, SSA
management stated that the call data maintained on the SSA mainframe was not saved
in a format that could be used by the auditor in recalculating the performance indicators,
and that management was unable to provide the data to PwC. As a result, PwC was
unable to recalculate the performance indicator results, and could not verify the
accuracy of results presented in the PAR. It should be noted that SSA management is
currently working on a project to save the data to the SSA mainframe in a format that
will be usable by management and auditors.

Accuracy of PAR Presentation and Disclosure

The data definition published in the PAR for the performance indicator, “Optimize the
Speed in Answering 800-Number Calls” was inaccurate. The wording in the PAR
defined the wait time calculation for the ASA performance indicator as “Wait time begins
from the time callers first hear the message that they will be connected with the next
available agent, and ends when an agent answers.” 16 However, our testing revealed
that the Verizon ACDs were tracking and recording the wait time calculation based upon
the time between when the caller first heard their estimated wait time in queue, until an
15
  American Institute of Certified Public Accountants, AU 324 Service Organizations, Statement on
Auditing Standards No. 70 is the authoritative guidance that allows service organizations to disclose their
control activities and processes to the organizations that use their services and the organizations’
auditors in a uniform reporting format.
16
     Social Security Administration Performance and Accountability Report Fiscal Year 2005, p. 80.


Performance Indicator Audit: 800-Number Access (A-02-06-16108)                                           6
agent answered the call. If the caller did not receive an announcement of their
estimated wait time in queue, the ACD recorded the call as going straight to the agent
without waiting in queue.

SSA management stated that the ACDs were set to provide the caller with an estimated
wait time for those incoming calls that were estimated to be answered by agents in
greater than 1 minute. The ACDs automatically estimated the queue wait times based
upon agent availability and queue capacity. Our research revealed that this calculation
was commonly used in call center measurements. Although PwC recognized that this
calculation methodology was valid and in-line with call center industry standards, the
definition as currently stated in the PAR did not accurately define how SSA calculated
the ASA, and could cause the reader to reach the inappropriate conclusion. SSA
management concurred with this finding, and is currently updating the data definition for
this indicator.

In addition, we noted that the linkage in the PAR between the ASA performance
indicator and the indicator "Percent of individuals who do business with SSA rating the
overall service as ‘excellent’, ‘very good’, or ‘good’" could be improved. This
performance indicator is a compilation of three separate service delivery options to the
public: 800 number service, field office telephone service, and office visits. SSA had
made numerous technological enhancements to the National 800-Number Network in
efforts to improve the service to the public. As such, there have been “very favorable
ratings they received for their courtesy, helpfulness, job knowledge and the clarity of
their explanations.” 17 This link would complement the ASA performance indicator by
informing the reader that the Agency is committed to continuous improvements, and
that 85 percent 18 of the public was satisfied with their interactions with SSA via the
various service delivery options. By excluding a reference to this complementary
indicator, the reader may not develop a complete understanding of the relatively high
level of public satisfaction through interactions with SSA.

RECOMMENDATIONS
For the performance indicators included in this report, we recommend SSA:

       1. Work with Verizon to request access to systems for verification and/or adequate
          control attestation documentation (such as a Statement of Auditing Standards
          #70 report) be provided to SSA management.




17
     Social Security Administration Performance and Accountability Report Fiscal Year 2005, p. 83.
18
     Ibid.


Performance Indicator Audit: 800-Number Access (A-02-06-16108)                                       7
   2. Perform ongoing control tests related to the generation, storage, and calculation
      of performance indicator data. These tests should be designed to ensure the
      data used to calculate the results of the performance indicators are complete,
      accurate, valid, and that access to the data is appropriately restricted.

   3. Retain all documentation related to the testing procedures and results of those
      tests of the control environment related to the performance indicator data.

   4. Archive the Cisco Webview Application source data used in calculating the
      performance indicator results and populating the internal management reports.
      Additionally, call data maintained on the SSA mainframe should be kept in a
      usable format to provide support for the indicator results reported in the PAR.

Specific to the performance indicator, “Optimize the Speed in Answering 800-Number
Calls,” we recommend SSA:

   5. Revise the performance indicator data definition in the PAR so it more accurately
      reflects what is being measured specific to when call wait time calculations begin
      and end.

   6. Include a narrative linkage in the description of this indicator to the “Percent of
      people who do business with SSA rating the overall service as ‘excellent’, ‘very
      good’, or ‘good’” performance indicator in the PAR.

AGENCY COMMENTS
The Agency agreed with all of the recommendations. The Agency’s comments are
included in Appendix D.




Performance Indicator Audit: 800-Number Access (A-02-06-16108)                              8
                                          Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Process Flowcharts

APPENDIX D – Agency Comments




Performance Indicator Audit: 800-Number Access (A-02-06-16108)
                                                                 Appendix A
Acronyms
 ABR      Agent Busy Rate
 ACD      Automatic Call Distributor
 ASA      Average Speed of Answer
 CCNS     Call Center Network Solutions
 FY       Fiscal Year
 GAO      Government Accountability Office
 GPRA     Government Performance and Results Act
 ICM      Intelligent Contact Manager
 OCO      Office of Central Operations
 OCSO Office of the Chief Strategic Officer
 OTS      Office of Telephone Services
 PAR      Performance and Accountability Report
 PSC      Program Service Center
 PwC      PricewaterhouseCoopers
 SSA      Social Security Administration
 TSC      Teleservice Center
 U.S.C. United States Code
 VNT      Voice Network Team
 YTD      Year to Date




Performance Indicator Audit: 800-Number Access (A-02-06-16108)
                                                                      Appendix B
Scope and Methodology
We updated our understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act (GPRA) processes. This was completed
through research and inquiry of SSA management. We also requested SSA to provide
various documents regarding the specific programs being measured as well as the
specific measurement used to assess the effectiveness and efficiency of the related
program.

Through inquiry, observation, and other substantive testing, including testing of source
documentation, we performed the following:

   •   Reviewed prior SSA, Government Accountability Office, Office of the Inspector
       General and other reports related to SSA’s GPRA performance and related
       information systems.
   •   Reviewed applicable laws, regulations and SSA policy.
   •   Met with the appropriate SSA personnel to confirm our understanding of the
       performance indicator.
   •   Flowcharted the process. (See Appendix C).
   •   Tested key controls related to manual or basic computerized processes (e.g.,
       spreadsheets, databases, etc.).
   •   Conducted and evaluated tests of the manual controls within and surrounding
       each of the critical applications to determine whether the tested controls were
       adequate to provide and maintain reliable data to be used when measuring the
       specific indicator.
   •   Identified attributes, rules, and assumptions for each defined data element or
       source document.
   •   Recalculated the metrics of key performance indicators to ensure mathematical
       accuracy.
   •   For those indicators with results that SSA determined using computerized data,
       we assessed the completeness and accuracy of that data to determine the data's
       reliability as it pertains to the objectives of the audit.

As part of this audit, we documented our understanding, as conveyed to us by Agency
personnel, of the alignment of the Agency’s mission, goals, objectives, processes, and
related performance indicators. We analyzed how these processes interacted with
related processes within SSA and the existing measurement systems. Our
understanding of the Agency’s mission, goals, objectives, and processes were used to
determine if the performance indicators appear to be valid and appropriate given our
understanding of SSA’s mission, goals, objectives and processes.




Performance Indicator Audit: 800-Number Access (A-02-06-16108)                        B-1
We followed all performance audit standards in accordance with generally accepted
government auditing standards. In addition to these steps, we specifically performed
the following to test the indicators included in this report:

OPTIMIZE THE SPEED IN ANSWERING 800-NUMBER CALLS

   •   Performed a walkthrough of the download process from the Cisco Webview
       Application to the electronic spreadsheets for the recording and tracking of the
       Average Speed of Answer (ASA).
   •   Inspected access permissions to the reports maintained in the Office of
       Telephone Services (OTS) Voice Network Team (VNT) folder on the shared
       drive.
   •   Conducted test calls to the SSA National 800-Number Network to assess the
       accuracy and completeness of the call data being recorded by the Automatic Call
       Distributor (ACD) systems.
   •   Inquired about the testing performed on the vendor supplied ACD systems.
   •   Inspected the Verizon FTS2001 Contract to understand the system specifications
       for the service being provided.

OPTIMIZE THE 800-NUMBER AGENT BUSY RATE

   •   Performed a walkthrough of the download process from the Cisco Webview
       Application to the electronic spreadsheets for the recording, tracking and
       calculation of the Agent Busy Rate (ABR).
   •   Inspected access permissions to the reports maintained in the OTS VNT folder
       on the shared drive.
   •   Inquired about the testing performed on the vendor supplied Intelligent Contact
       Manager (ICM) application.




Performance Indicator Audit: 800-Number Access (A-02-06-16108)                       B-2
                                                                 Appendix C
Process Flowchart for 800-Number Access




Legend -
 Start of the 800-Number Access flow process: This is represented by the white
   boxes. The process is the same for the Optimize the Speed of Answering 800-
   Number Calls and Optimize the 800-Number Agent Busy Rate performance
   indicators.
 Optimize the Speed of Answering 800-Number Calls: This process is represented
   by the gray shaded boxes. Refer to the flowchart details on pages C-2 and C-3.
 Optimize the 800-Number Agent Busy Rate: This process is represented by the
   peach shaded boxes. Refer to the flowchart details on pages C-4 and C-5.



Performance Indicator Audit: 800-Number Access (A-02-06-16108)                C-1
Flowchart of Optimize the Speed of Answering 800-
Number Calls - Process Flowchart (Data Path)




Performance Indicator Audit: 800-Number Access (A-02-06-16108)   C-2
Flowchart of Optimize the Speed in Answering 800-
Number Calls – Narrative
   Caller dials into the Social Security Administration (SSA) 800-Number Network.
   Caller hears greeting and service selection announcements.
   Caller selects the automated services.
        o Yes – Transaction processed by automated service selected.
        o No – Caller’s call is offered to an agent.
   Agent available.
        o Yes – The caller is routed to an agent.
                Agent answers the call.
        o No – Queue available.
                No – Caller receives busy message.
                Yes – Caller is placed in queue. Start calculation of wait times
                             • Caller waits for an agent.
                                    o No – Caller disconnects.
                                    o Yes – Caller routed to agent
                                            Agent answers the call. End calculation of
                                               wait times
   The ASA call data is recorded in the ACD systems.
   The ASA call data is transferred to the Cisco Webview Application every 30 minutes.
   Office of Telephone Services (OTS) VNT extracts the daily data for ASA every 60
    minutes.
   OTS VNT compiles the YTD ASA data.
   Information sent to OCSO to be reported in the PAR.
   Data reported in the PAR.




Performance Indicator Audit: 800-Number Access (A-02-06-16108)                    C-3
Flowchart of Optimize the 800-Number Agent Busy
Rate - Process Flowchart (Data Path)




Performance Indicator Audit: 800-Number Access (A-02-06-16108)   C-4
Flowchart of Optimize the 800-Number Agent Busy
Rate – Narrative
   Caller dials into the SSA 800-Number Network.
   Caller hears greeting and service selection announcements.
   Caller selects the automated services.
        o Yes – Transaction processed by automated service selected.
        o No – Caller’s call is offered to an agent.
   Agent available.
        o Yes – The caller is routed to an agent.
                Agent answers the call.
        o No – Queue available.
                No – Caller receives busy message.
   The ABR call data is recorded in the ICM application.
   The ABR call data is transferred to the Cisco Webview Application every 30 minutes.
   OTS VNT extracts the daily data for ABR every 60 minutes.
   OTS VNT calculates the daily ABR.
   OTS VNT compiles the YTD ABR data.
   Information sent to OCSO to be reported in the PAR.
   Data reported in the PAR.




Performance Indicator Audit: 800-Number Access (A-02-06-16108)                    C-5
                                                                 Appendix D
Agency Comments




Performance Indicator Audit: 800-Number Access (A-02-06-16108)
                                        SOCIAL SECURITY

MEMORANDUM                                                                      0609-0011261

Date:      September 14, 2006                                                   Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General
From:      Larry W. Dye /s/
           Chief of Staff
Subject:   Office of the Inspector General (OIG) Draft Report, "Performance Indicator Audit: 800 Number
           Access" (A-02-06-16108)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report’s
           recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




           Performance Indicator Audit: 800-Number Access (A-02-06-16108)                              D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “PERFORMANCE INDICATOR AUDIT: 800 NUMBER ACCESS”
(A-02-06-16108)

Thank you for the opportunity to review and provide comments on this draft report.

Recommendation 1

Work with Verizon to request access to systems for verification and/or adequate control
attestation documentation (such as a Statement of Auditing Standards #70 report) be provided to
SSA management.

Comment

We agree. We will address this issue in the technical specifications of the next procurement,
which will be in fiscal year (FY) 2007.

Recommendation 2

Perform ongoing control tests related to the generation, storage, and calculation of performance
indicator data. These tests should be designed to ensure that data used to calculate the results of
the performance indicators are complete, accurate, valid, and that access to the data is
appropriately restricted.

Comment

We agree. We will address this issue in the technical specifications of the next procurement,
which will be in FY 2007.

Recommendation 3

Retain all documentation related to the testing procedures and results of those tests of the control
environment related to the performance indicator data.

Comment

We agree. We will address this issue in the technical specifications of the next procurement,
which will be in FY 2007.

Recommendation 4

Archive the Cisco Webview Application source data used in calculating the performance
indicator results and populating the internal management reports. Additionally, call data
maintained on the SSA mainframe should be kept in a usable format to provide support for the
indicator results reported in the Performance and Accountability Report (PAR).




Performance Indicator Audit: 800-Number Access (A-02-06-16108)                                D-2
Comment

We agree. Currently the Cisco Webview Application source data is already archived on the SSA
mainframe. Regarding the need to have the call data maintained in a usable format, we will
improve the tracking mechanism used to capture performance data so that third-parties can easily
retrieve and analyze data.

Recommendation 5

Specific to the performance indicator, “Optimize the Speed in Answering 800-Number Calls,”
revise the performance indicator data definition in the PAR so it more accurately reflects what is
being measured specific to when call wait time calculations begin and end.

Comment

We agree. We have revised the definition of “answer wait time” which will be included in the
Agency’s FY 2007-2008 Annual Performance Plan and reported in the FY 2007 PAR:

       The answer wait time of all calls divided by the number of all calls answered by
       agents - Wait time begins from the time the call is placed in queue and ends when
       an agent answers. Calls that go straight to an agent without waiting in the queue
       have a zero wait time but are included in the average speed of answer (ASA)
       calculation. ASA does not include callers who hang up after being in queue.

Recommendation 6

Specific to the performance indicator, “Optimize the Speed in Answering 800-Number Calls,”
include a narrative linkage in the description of this indicator to the “Percent of people who do
business with SSA rating the overall service as “excellent,” “very good,” or “good””
performance indicator in the PAR.

Comment

We agree. We will include this linkage in the FY 2006 PAR.




Performance Indicator Audit: 800-Number Access (A-02-06-16108)                                D-3
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
